                          AUDIT REPORT




Recycling Opportunities in
the San Francisco District
  June 13, 2014




                  Report Number HR-AR-14-002
                                                                   HIGHLIGHTS

                                                                       June 13, 2014
                                                       Recycling Opportunities in the
                                                               San Francisco District
                                                        Report Number HR-AR-14-002
BACKGROUND:
Recycling is the process of changing        because management did not make
used materials into new products to         recycling a priority and always require
reduce waste. Each year the U.S. Postal     backhauling. Additionally, employees
Service generates recyclable material,      were not always aware of or trained in
and although there are costs to recycle,    recycling policies. We also found that
it also generates revenue. In 2012,         management did not accurately report
Postal Service recycling efforts            recycling costs and could not
generated $49.5 million, with only about    adequately determine the impact of its
one-third of Postal Service facilities      recycling program because there are no
participating in backhaul recycling.        controls to ensure proper recording of
Backhauling is when Postal Service          recycling costs. Also, recycling
employees deliver mail to a facility and    contractors did not always separate cost
return to the originating facility with     and revenue on invoices.
materials for consolidation and
recycling.                                  We identified best practices in the
                                            Northern Virginia District that, if
The Postal Service requires recycling       implemented, could help the San
programs in all districts; however,         Francisco District reduce waste disposal
program results vary. From fiscal years     costs and increase recycling revenue.
2012 to 2013, the San Francisco District    They include monitoring recycling
was among the highest in average            contracts and providing awareness
monthly waste disposal costs                training. By more effectively managing
($112,049) and among the lowest in          its recycling program, the San Francisco
average monthly recycling revenue           District could reduce annual waste
($3,312). Our objective was to              disposal costs by an average of
determine whether opportunities exist to    $542,135 and increase annual recycling
decrease waste disposal costs and           revenue by an average of $178,245.
increase recycling revenue in the San
Francisco District.                         WHAT THE OIG RECOMMENDED:
                                            We recommended management
WHAT THE OIG FOUND:                         implement backhauling procedures,
Opportunities exist to decrease waste       provide additional recycling guidance
disposal costs and increase recycling       and training to appropriate personnel,
revenue in the San Francisco District.      establish controls to ensure personnel
We determined management could              accurately record recycling costs, and
expand backhauling and better recycle       ensure future recycling contracts require
plastics. An average of 65 percent of the   contractors to separate revenue and
material in trash containers at San         costs on their invoices.
Francisco District sites was recyclable     Link to review the entire report
June 13, 2014

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, PACIFIC AREA

                           THOMAS G. DAY
                           CHIEF SUSTAINABILITY OFFICER

                           DAVID B. STOWE
                           DISTRICT MANAGER, SAN FRANCISCO DISTRICT




FROM:                      Janet M. Sorensen
                           Deputy Assistant Inspector General
                            for Revenue and Resources

SUBJECT:                   Audit Report – Recycling Opportunities in the San Francisco
                           District (Report Number HR-AR-14-002)

This report presents the results of our audit of Recycling Opportunities in the San
Francisco District (Project Number 14YG002HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Recycling Opportunities in the San Francisco District                                                                HR-AR-14-002




                                                TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Expand Backhauling........................................................................................................ 3

Plastics ............................................................................................................................ 3

Reporting Recycling Costs .............................................................................................. 5

Best Practices ................................................................................................................. 5

Postal Service Actions Taken .......................................................................................... 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impacts ..................................................................................... 11

Appendix C: Sites Visited .............................................................................................. 13

Appendix D: Management’s Comments ........................................................................ 15
Recycling Opportunities in the San Francisco District                                              HR-AR-14-002




Introduction

This report presents the results of our self-initiated audit of Recycling Opportunities in
the San Francisco District (Project Number 14YG002HR000). Our objective was to
determine whether opportunities exist to decrease waste disposal costs and increase
recycling revenue in the San Francisco District. See Appendix A for additional
information about this audit.

Recycling is the process of changing used materials into new products to reduce waste.
The U.S. Postal Service’s environmental policy requires recycling programs in all
districts; however, program results vary. As shown in Figure 1, the Postal Service
generates large amounts of recyclable material including mixed paper, cardboard, and
plastics. The Postal Service incurs a cost to dispose of materials that it could recycle to
generate revenue.

                               Figure 1. Mixed Paper in a Dumpster




     Source: U.S. Postal Service Office of Inspector General (OIG) photograph taken January 13, 2014, in the San
     Francisco District.




                                                        1
Recycling Opportunities in the San Francisco District                                                    HR-AR-14-002



Nationwide, the Postal Service has targeted undeliverable Standard Mail, discarded
lobby mail, and old corrugated cardboard for recycling. Collecting recyclable mail,
cardboard, and plastics at a central location by backhauling allows the Postal Service to
increase revenue while reducing costs associated with disposing of these materials.
Backhauling is a collection method in which Postal Service employees deliver mail to a
facility and, before returning to the originating hub,1 collect recyclables in mail transport
equipment (MTE) and transport them to the hub for consolidation and recycling.
Employees empty the MTE, which is reused to dispatch mail. The backhaul program is
efficient because it uses the existing infrastructure (personnel, transportation, and
equipment) to recycle.

In February 2014, the Postal Service implemented a standardized national recycling
program that focuses on recycling mixed paper, cardboard, and plastic from all Postal
Service facilities using universal dumpsters and compactors to maximize efficiency.
Based on Office of Sustainability2 waste assessments, mixed paper (primarily waste
mail, discarded lobby mail, and office paper) constitutes 64 percent of the trash by
weight that Postal Service facilities are not backhauling.3 Typically, facility trash disposal
has two costs: tonnage to be discarded and a container haul rate. Therefore, minimizing
trash tonnage and haul frequency by recycling can significantly reduce disposal costs.

From fiscal years (FY) 2012 to 2013, the San Francisco District had among the highest
average monthly waste costs ($112,049) and among the lowest average monthly
recycling revenue ($3,312) nationwide. In comparison, the Northern Virginia (NOVA)
District’s average monthly waste cost was $29,978 and recycling revenue was $33,422.

Conclusion

Opportunities exist for the San Francisco District to decrease waste disposal costs and
increase recycling revenue. We determined management could expand the use of
backhauling and recycle plastics. An average of 65 percent of the trash in San
Francisco District dumpsters was recyclable because management did not make
recycling a priority and did not implement procedures to backhaul at all designated
hubs. Additionally, employees in the San Francisco District were not always aware of
recycling policies and procedures or were not adequately trained. Further, management
did not accurately record recycling costs so they could not determine exact recycling
costs or revenue and could not adequately manage recycling contracts. We identified
best practices in the NOVA District that, if implemented, could help the San Francisco
District reduce waste costs and increase recycling revenue. By optimizing its recycling
program, the San Francisco District could reduce annual waste costs by an average of
$542,135 and increase annual recycling revenue by an average of $178,245. See
Appendix B for our calculation of monetary impacts.


1
  A hub is the facility that recyclable material is backhauled to, normally a P&DC.
2
  The Office of Sustainability is responsible for developing policies and providing guidance on issues related to Postal
Service recycling.
3
  National Recycling Program Decision Analysis Report (DAR), page 3, dated September 20, 2013.

                                                           2
Recycling Opportunities in the San Francisco District                                              HR-AR-14-002




Expand Backhauling

Of the three designated hubs in the San Francisco District,4 only the San Francisco
Processing and Distribution Center (P&DC) participated in backhauling. The North Bay
Delivery and Distribution Center (D&DC)5 and the Eureka Post Office (PO), which
together service about 100 Postal Service facilities, were not backhauling. This occurred
because management did not make recycling a priority and did not implement
procedures to backhaul at all designated hubs. Additionally, there is a complex mail flow
arrangement between the North Bay D&DC and the Oakland P&DC,6 which makes
implementing backhauling at the North Bay D&DC difficult. Facilities that do not
participate in backhauling miss an opportunity to generate revenue while incurring pick-
up costs for vendors to collect recyclable material.

Plastics

We found that Postal Service personnel did not always recycle plastics. As shown in
Figure 2, personnel fill dumpsters with potentially recyclable plastic to be hauled away
as garbage.




4
  National Recycling Program DAR, dated September 20, 2013, states that the San Francisco District should have
three hubs backhauling.
5
  Formerly the North Bay P&DC.
8
  The North Bay plant is no longer a P&DC and the Oakland P&DC has taken over recycling responsibility; the San
Francisco district manager does not have jurisdiction over the Oakland District.

                                                        3
Recycling Opportunities in the San Francisco District                                               HR-AR-14-002



                                     Figure 2. Plastic in Dumpster




            Source: OIG photograph taken January 13, 2014, in the San Francisco District.

This occurred because employees in the San Francisco District were not aware of
recycling policies and procedures or were not adequately trained. Twenty-eight of 42
responsible personnel interviewed (67 percent) indicated they were not aware of the
requirement to recycle plastics. Additionally, 37 of the 42 responsible personnel
(88 percent) stated that they had not received any recycling training and management
did not provide any service talks7 regarding recycling or waste reduction within the
previous 3 years. Further, the environmental compliance/sustainability specialist
supporting the San Francisco District stated he devoted 5 percent of his time to
recycling efforts and the other 95 percent to environmental compliance issues.

According to Postal Service policy,8 employees must recycle plastic waste resulting
from postal operations. Also, Office of Sustainability personnel must provide guidance to
district managers on Postal Service environmental policies. While recycling plastics is
not a common practice at many facilities, it can be effective with proper awareness and
training. The San Francisco District could reduce waste costs by about $1.1 million over
2 years and increase recycling revenue by $712,979 over 4 years by expanding its
backhauling operations and recycling all plastics.


7
  Service talks are designed to assist management with communicating timely, relevant information to employees in a
face-to-face format. Recycling service talks can be downloaded from the Office of Sustainability website.
8
  Management Instruction (MI) EL-890-2009-9, Recycling Undeliverable Standard Mail, Discarded Lobby Mail, and
Other Recyclable Materials, dated October 1, 2009.

                                                         4
Recycling Opportunities in the San Francisco District                             HR-AR-14-002



Reporting Recycling Costs

San Francisco District finance personnel did not accurately report recycling costs.
Specifically, they did not record recycling costs separately in general ledger account
(GLA) 56607.696, Waste Disposal Costs – Recyclable Materials, Dead Mail, and so
forth, as required.9 For FY 2013, this GLA had a zero balance although some vendors
servicing the San Francisco District charged to pick up recyclable materials from postal
facilities.

This occurred because management did not have controls to ensure personnel properly
recorded recycling costs. Also, installation heads and facility managers are responsible
for ensuring vendors provide a volume, cost, and revenue report for services rendered.
However, vendor invoices did not always include separate cost and revenue amounts.
Recycling contractors subtracted recycling costs from revenue and provided a net
amount. As a result, the Postal Service cannot adequately determine the impact of its
recycling programs. Inaccurate recycling cost reporting appears to be a systemic issue
nationwide. According to management, the Postal Service is reviewing contracts to
include a requirement for contractors to segregate revenue and cost amounts in their
invoices.

Best Practices

We identified best practices in the NOVA District that, if implemented, could help the
San Francisco District reduce waste costs and increase recycling revenue (see
Table 1). The NOVA District has recycling expenses similar to those in the San
Francisco District but generated $333,565 more recycling revenue in 2013 (see
Table 2).

                             Table 1. NOVA District Best Practices

                                        Monitoring Activities
The contracting officer's representative closely monitors recycling and waste contract
requirements and serves as the point of contact for all vendor-related routine matters while
keeping accurate records regarding contract-related activities. Monitoring contract compliance
and resolving vendor-related issues helps the NOVA District select suitable vendors and
contracts. Additionally, management oversee all recyclable material coming into the P&DC from
the associated offices and ensure that it is being properly dispersed into the appropriate
compactor.
                                       Awareness Training
Each postmaster and station and branch manager periodically provide service talks to
employees to ensure they are familiar with recycling requirements.
Source: OIG analysis.




9
    MI-EL-890-2009-9.

                                                        5
Recycling Opportunities in the San Francisco District                                     HR-AR-14-002




    Table 2. Comparison of San Francisco and NOVA Districts Calendar Year 2013
                         Recycling Revenue and Expenses

                   San            San              San
                Francisco      Francisco        Francisco                      NOVA          NOVA
                  Gross        Recycling           Net          NOVA Gross    Recycling       Net
   Month        Revenue        Expenses         Revenue          Revenue      Expenses      Revenue
 January            $8,076           $7,488              $588       $34,490       $4,472      $30,018
 February            6,818            6,030               788        32,384        4,128       28,256
 March               8,420            5,300             3,120        42,480        4,472       38,008
 April               8,191            3,880             4,311        38,127        4,644       33,483
 May                 7,792            4,680             3,112        31,939        4,730       27,209
 June                6,345            4,030             2,315        28,813        4,214       24,599
 July                6,671            4,090           2,581          32,144        4,558       27,586
 August              6,468            4,260           2,208          29,362        4,730       24,632
 September           6,580            3,930           2,650          30,528        4,128       26,400
 October             7,573            5,180           2,393          36,438        4,988       31,450
 November            6,649            4,190           2,459          40,876        4,644       36,232
 December            6,404            5,250           1,154          41,960        4,300       37,660
 Total             $85,987          $58,308         $27,679        $419,541      $54,008     $365,533
Source: OIG analysis.

Postal Service Actions Taken

During our audit, management at the Pine Street and Marina stations and the San
Francisco P&DC began lowering trash costs by reducing the size and number of trash
dumpsters used and the frequency of trash collection. As of February 2014, the sites
compared their monthly waste invoices with their present needs and adjusted
accordingly. As a result:

    The Pine Street Station will potentially realize annual savings of $20,502.
    The Marina Station will potentially realize annual savings of $18,502.
    The San Francisco P&DC will potentially realize annual savings of $120,000.

In September 2013, the Postal Service approved $33.1 million to implement the
National Recycling Program. The funds will cover capital improvements and expenses
related to recycling operations. The goal of the program is to increase recycling efforts
nationwide and standardize recycling procedures across all Postal Service districts by
the end of 2017.




                                                        6
Recycling Opportunities in the San Francisco District                         HR-AR-14-002




Recommendations

We recommend the vice president, Pacific Area:

1. Implement backhauling procedures at all designated hubs in the San Francisco
   District.

We recommend the chief sustainability officer:

2. Establish procedures to require the environmental compliance/sustainability
   specialist to provide additional recycling guidance to the district manager and
   personnel involved with recycling.

3. Coordinate with Supply Management to ensure future recycling contracts require
   contractors to separate revenue and cost amounts on invoices.

We recommend the San Francisco district manager:

4. Provide training to personnel involved with recycling to increase awareness and
   recycling in the San Francisco District.

5. Establish controls to ensure that responsible personnel accurately record recycling
   costs.

Management’s Comments

Management did not state whether they agreed or disagreed with the findings and
recommendations but their planned corrective actions indicated agreement with all of
the recommendations in the report.

In response to recommendations 1 and 2, management stated that the Office of
Sustainability will support the backhaul recycling operations and procedures for the San
Francisco District as part of the implementation of the National Recycling Operation
program, which is scheduled to begin FY 2015. As part of this program, the office will
also provide additional recycling guidance to the San Francisco District. In prior
correspondence, management stated the program would be completed by September
30, 2015.

Regarding recommendation 3, management stated that the National Recycling
Operation program already includes a requirement to standardize recycling contracts to
separate revenue and cost amounts.

For recommendations 4 and 5, the Office of Sustainability will support the San
Francisco District with personnel training and provide the district manager support in
assisting responsible personnel in the proper recording of recycling costs as part of the


                                                        7
Recycling Opportunities in the San Francisco District                         HR-AR-14-002



National Recycling Operation program. See Appendix D for management’s comments,
in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The OIG considers
all the recommendations significant, and therefore requires OIG concurrence before
closure. Consequently, the OIG requests written confirmation when corrective actions
are completed. These recommendations should not be closed in the Postal Service's
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                                        8
Recycling Opportunities in the San Francisco District                                              HR-AR-14-002




                                Appendix A: Additional Information

Background

Recycling and eliminating waste are widely recognized by corporate America as
business opportunities. In 2012, Postal Service recycling efforts generated recycle
revenue of $49.5 million, although only about one-third of Postal Service facilities
participated in backhauling. Backhauling is a collection method where Postal Service
employees deliver mail to a facility and return to the originating facility with used
materials for consolidation and recycling.

The Postal Service is deploying a standardized national recycling program that focuses
on comprehensive recycling of mixed paper (primarily waste mail, discarded lobby mail,
and office paper), cardboard, and plastic from all Postal Service facilities using universal
dumpsters and compactors to maximize efficiencies. Based on Office of Sustainability
waste assessments, mixed paper constitutes 64 percent10 of the trash by weight at
Postal Service facilities that are not backhauling. Typically, facility trash disposal has
two costs: tonnage to be discarded and a container haul rate. Therefore, minimizing
trash by recycling can significantly reduce disposal costs.

In FY 2011, the San Francisco District initiated a Lean Six Sigma project11 to increase
its paper recycling revenue. It estimated the district's pick-up cost for recycled paper
was $86,640 for FY 2011.12 The study recognized the San Francisco District was not
maximizing its recycling revenue and was trailing most districts in the nation in
recycling. The study only recognized paper as a recycling commodity and projected an
increase of at least $50,000 annually. The San Francisco District did not achieve this
goal.

Objective, Scope, and Methodology

Our objective was to determine whether opportunities exist to decrease waste disposal
costs and increase recycling revenue in the San Francisco District. To accomplish our
objective, we:

    Reviewed recycling and waste collection processes and the roles and
     responsibilities of Postal Service Operations, Supply Chain Management,
     Sustainability, and Finance.

    Benchmarked with the NOVA District for best practices because this district was
     among the lowest in average monthly waste disposal costs and among the highest
     in average monthly recycling revenue in the nation.
10
   National Recycling Program DAR, page 3, dated September 20, 2013.
11
   Continuous improvement, based primarily on time tested Lean Six Sigma methodologies, identifies and corrects
the root causes of an issue rather than addressing superficial symptoms. In 2007, the Postal Service made a
strategic decision to adopt established Lean Six Sigma principles to improve its business.
12
   Executive Summary, Lean Six Sigma Study presentation, 2011.

                                                        9
Recycling Opportunities in the San Francisco District                               HR-AR-14-002




      Interviewed Postal Service officials responsible for recycling and waste
       management.

      Identified and reviewed contracts related to recycling and waste management.

      Visited the 42 stations and branches in the San Francisco District with the highest
       waste disposal costs, including the three designated San Francisco District hubs.

      Identified the mix of paper, plastic, and cardboard in trash dumpsters and
       determined the percentage of waste at each facility that could have been recycled.

      Analyzed current collection procedures and reviewed invoices for recycle revenue.

We conducted this audit from October 2013 through June 2014 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on May 5, 2014, and included their comments where
appropriate.

We assessed the reliability of Enterprise Data Warehouse13 data by judgmentally
comparing system data to source documents. We determined that the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

We did not identify prior audit reports pertaining to this topic within the last 3 years.




13
     A single repository for storing and managing all Postal Service data assets.

                                                            10
Recycling Opportunities in the San Francisco District                                                HR-AR-14-002




                                    Appendix B: Monetary Impacts

           Recommendation                      Impact Category                              Amount
                 1                     Revenue Loss14                                        $712,979
                 2                     Questioned Costs15                                     542,135
                 2                     Funds Put To Better Use16                              542,135
               Total                                                                       $1,797,249

Revenue Loss

We calculated recycling revenue based on the projected amount the Postal Service
should have recycled compared to what it did recycle during the same period. The
difference represents revenue loss. We used the methodology from an agency
advisory17 and calculated projected recycle revenue using both Carrier Route and San
Francisco District population methods. We used the most conservative amount of the
two, which totaled $712,979 from calendar years (CY) 2012 through 2015.

Specifically, we:

    Calculated estimated potential revenue (EPR) for each year.

    Obtained actual recycling revenue (ARR) for 2011, 2012, and 2013.

    Projected estimated recycling revenue (ERR) for 2014 and 2015 using regression
     analysis.18

    Calculated lost revenue = EPR - ARR (or ERR).

    Identified total revenue loss as the total of all 4 calendar years, which equals
     $712,979 ($358,080 revenue loss for 2012 and 2013 and $354,899 revenue loss for
     2014 and 2015).

Questions Costs and Funds Put to Better Use

We calculated questioned costs and funds put to better use based on 42 sites with the
highest waste expenditures. The sites selected captured about 80 percent of the waste
costs. Based on our observation of 42 sites and agreement by facility supervisors, we



14
   Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed.
15
   Unnecessary and unreasonable. Usually a result of historical events.
16
   Funds that could be used more efficiently by implementing recommended actions.
17
   Recycling Advisory Bulletin No. 6, Estimating the Volumes and Revenues from Recycling Paper and Plastics,
June 2012, provides guidance to Postal Service districts on estimating revenue from an active recycling program.
18
   A statistical process for determining the relationships among variables for predicting and forecasting.

                                                        11
Recycling Opportunities in the San Francisco District                         HR-AR-14-002



applied the percentage of recyclable material that was in the trash dumpsters to the
total waste costs, which totaled $542,135. The questioned cost is for CY 2013 and
funds put to better use is for CY 2014.

Specifically, we:

   Obtained waste costs for the entire San Francisco District.

   Identified 42 high waste cost sites.

   Estimated the percentage of trash that should be recycled.

   Multiplied the percentage of trash that should be recycled by actual waste costs for
    all 42 facilities.

   Total of 42 sites equals $542,135.




                                                        12
Recycling Opportunities in the San Francisco District                             HR-AR-14-002




                                         Appendix C: Sites Visited

We visited the following 42 field sites to observe recycling operations and activities.


                Site Name                                          Address
 Arcata PO                                      799 H Street; Arcata, CA
 Bayview Station                                2111 Lane Street; San Francisco, CA
 Belmont PO                                     640 Masonic Way; Belmont, CA
 Belvedere/Tiburon PO                           6 Beach Road; Tiburon, CA
 Brannan Station                                460 Brannan Street; San Francisco, CA
 Bryant Street Station                          1600 Bryant Street; San Francisco, CA
 Burlingame PO                                  220 Park Road; Burlingame, CA
 Casa Grande Carrier Annex                      1601 Corporate Circle; Petaluma, CA
 Corte Madera PO                                7 Pixley Avenue; Corte Madera, CA
 Daly City PO                                   1100 Sullivan Avenue; Daly City, CA
 Eureka PO                                      337 W Clark Street; Eureka, CA
 Gateway San Francisco PO                       1 Embarcadero Center; San Francisco, CA
 Golden Gate Station                            3245 Geary Boulevard; San Francisco, CA
 Irving Street Station                          821 Irving Street; San Francisco, CA
 Los Altos PO/Loyola Corners                    1525 Miramonte Avenue; Los Altos, CA
 Station
 Mendell Street Carrier Annex                   151 Mendell Street; San Francisco, CA
 Menlo Park PO                                  3875 Bohannon Drive; Menlo Park, CA
 Mill Valley PO                                 751 Blithedale Avenue; Mill Valley, CA
                                                1198 S. Van Ness Avenue; San Francisco,
 Mission Street Station                         CA
 Napoleon Street Carrier Annex                  180 Napoleon Street; San Francisco, CA
 North Bay P&DC                                 1150 N. McDowell Boulevard; Petaluma, CA
 North Beach Annex                              2200 Powell Street; San Francisco, CA
 Novato PO                                      1537 S. Novato Boulevard; Novato, CA
 Palo Alto PO                                   2085 E. Bayshore Road; Palo Alto, CA
 Parkside Station                               1800 Taraval Street; San Francisco, CA
 Pine Street Station                            1400 Pine Street; San Francisco, CA
                                                150 Raleys Towne Center; Rohnert Park,
 Rohnert Park PO                                CA
                                                121 San Anselmo Avenue; San Anselmo,
 San Anselmo PO                                 CA
 San Bruno PO                                   1300 Huntington Avenue; San Bruno, CA
 San Carlos PO                                  809 Laurel Street; San Carlos, CA
 San Francisco International Service            660 West Field Road; South San Francisco,
 Center                                         CA
 San Francisco P&DC                             1300 Evans Avenue; San Francisco, CA
 San Mateo PO                                   1630 S. Delaware Street; San Mateo, CA

                                                        13
Recycling Opportunities in the San Francisco District                             HR-AR-14-002




              Site Name                                           Address
 San Rafael PO                                  40 Bellcam Boulevard; San Rafael, CA
 Santa Rosa PO                                  730 2nd Street; Santa Rosa, CA
 Sebastopol PO                                  290 S. Main Street; Sebastopol, CA
 Steiner Street PO                              1849 Geary Boulevard; San Francisco, CA
 Sunnyvale PO                                   209 E. Java Drive; Sunnyvale, CA
 Sunset Station                                 1314 22nd Avenue; San Francisco, CA
 Sutter Street Station                          150 Sutter Street; San Francisco, CA
 Townsend Station                               550 Townsend Street; San Francisco, CA
 Ukiah PO                                       671 S. Orchard Avenue; Ukiah, CA
Source: OIG analysis.




                                                        14
Recycling Opportunities in the San Francisco District           HR-AR-14-002



                            Appendix D: Management’s Comments




                                                        15
Recycling Opportunities in the San Francisco District        HR-AR-14-002




                                                        16
